PROCESSING CLASSIFIED INFORMATION
  ON PORTABLE COMPUTERS IN THE
      DEPARTMENT OF JUSTICE




        U.S. Department of Justice
      Office of the Inspector General
               Audit Division

           Audit Report 05-32
               July 2005
           PROCESSING CLASSIFIED INFORMATION
             ON PORTABLE COMPUTERS IN THE
                 DEPARTMENT OF JUSTICE
                          EXECUTIVE SUMMARY

       This Office of the Inspector General audit examines the policies and
practices in the Department of Justice (DOJ or Department) regarding
classified information on portable computers. Our audit objectives were to:
(1) review the Department’s policies and practices concerning the storage of
classified information on portable computers, and (2) determine whether
more effective practices could be adopted by the Department to enhance the
ability to process classified information on portable computers while
adequately safeguarding the information.

      To accomplish our objectives, we interviewed the Department’s Deputy
Chief Information Officer; the Assistant Director of the Security and
Emergency Planning Staff (SEPS); and information technology (IT) security
personnel from the Drug Enforcement Administration (DEA), the Federal
Bureau of Investigation (FBI), and the Executive Office for United States
Attorneys (EOUSA). In addition, we interviewed IT security personnel from
the Central Intelligence Agency (CIA), the National Security Agency, the
National Reconnaissance Office (within the Department of Defense), and the
Department of Energy. We also analyzed both government-wide policy and
DOJ policy as they relate to the processing of classified information on
portable computers.


Government-wide Policy

      Three organizations have responsibility for developing
government-wide policy related to the certification and accreditation of IT
systems.1 The Federal Information Security Management Act (FISMA)
delegates policy development and oversight to the National Institute of
Standards and Technology (NIST) for information systems other than
national security systems. Executive Order 13231, Critical Infrastructure

       1
          Certification and accreditation is a comprehensive evaluation of the technical and
non-technical security features and other safeguards in place on a system. The certification
is made as part of and in support of the accreditation process. The certification process
validates that appropriate safeguards have been implemented on the system. The process
culminates in the accreditation of the system (permission for the system to operate).

                                              i
Protection, requires the Committee on National Security Systems (CNSS) to
develop policy over national security systems that store, process, or transmit
classified information.2 In addition, Executive Orders 12333 and 12958
delegates to the CIA the responsibility for developing policy related to
processing Sensitive Compartmented Information.3 Based on Executive
Orders, the CNSS and the CIA are the ultimate authorities on how Classified
National Security Information and Sensitive Compartmented Information are
to be processed on computers within the DOJ and throughout the federal
government. The policies developed by these organizations cover all IT
systems, including portable computers.


DOJ Policy

      DOJ Order 2640.2E establishes uniform policy, responsibilities, and
authorities for the implementation and protection of the DOJ’s IT systems
that store, process, or transmit classified and unclassified information. The
Office of the Chief Information Officer and SEPS developed policy based on
authority derived from DOJ Order 2640.2E.

      The Department’s Chief Information Officer issued 18 Information
Technology Security Standards for DOJ systems that process classified and
unclassified information. The 18th standard, titled Information Technology
Security Standard, Management Controls, 1.6 Classified Laptop and
Standalone Computers Security Policy (Standard 1.6), established uniform
IT security management controls for classified laptop (portable) and
standalone computers storing, processing, or transmitting National Security
Information in the DOJ.

      Policy issued by SEPS, titled the Security Program Operating Manual
(SPOM), provides guidance for the safeguarding of classified information.
The SPOM applies to classified information, the facilities authorized to store
the information, security controls, and security clearance requirements for
employees.



       2
          The CNSS is the policy making body for all issues concerning the security of
national security systems for the federal government. See Appendix II for a list of the
voting members on the committee.
       3
          Sensitive Compartmented Information is classified information concerning or
derived from intelligence sources, methods, or analytical processes, which is required to be
handled exclusively within formal access control systems established by the Director of
Central Intelligence.

                                              ii
Audit Results

       Our audit disclosed areas where improvements can be made to the
current DOJ policy and practices relating to storing, processing, or
transmitting classified information on portable computers. Specifically, we
found Standard 1.6 includes inappropriate and confusing references and is
incomplete in providing guidance and instructions. Further, we identified
innovative practices to improve the use of portable computers for processing
classified information while adequately safeguarding classified information.

     Standard 1.6

       We identified three areas of concern with DOJ policy Standard 1.6.
First, although Standard 1.6 was written to address the processing of
classified information, it uses references to policies that do not apply to
portable or standalone computers that process, store, or transmit classified
information. For example, Standard 1.6 refers to Office of Management and
Budget Circular A-130, Revised, (Transmittal Memorandum No. 4;
Subject: Management of Federal Information Resources); Federal
Information Processing Standards Publication 197, Advanced Encryption
Standard (FIPS 197); DOJ Order 2620.7, Control and Protection of Limited
Official Use Information; 5 CFR Part 930, Training Requirement for the
Computer Security Act; and 18 U.S.C. 2510, Electronic Communications
Privacy Act. These documents relate to unclassified information. Policies for
systems that process unclassified information have no authority over
systems that store, process, or transmit classified information and,
therefore, should be omitted from the guidance. Inclusion of inappropriate
references in this Standard may confuse employees and lead to
implementation of incorrect practices.

      Second, Standard 1.6 does not address the systems that process
Classified National Security Information and Sensitive Compartmented
Information separately, as those systems are subject to policies that are
derived from different authorities. Despite unique and specific guidance
regarding Classified National Security Information and Sensitive
Compartmented Information, stipulated by Presidential delegated
government-wide authorities, Standard 1.6 does not differentiate between
the two types of information or provide separate processing requirements for
information classified under these distinct designations.

      Third, we found that Standard 1.6 includes incomplete guidance and
instructions. For example, it states that classified portable computers may
not be connected to external systems, networks, or communication devices.
However, the Deputy Chief Information Officer informed us that classified
portable computers can be connected to classified networks if the approval
                                       iii
to do so is documented in the security plan for the certification and
accreditation of the network. Standard 1.6 needs to be updated to clarify
this exception.

       Another example of incomplete guidance and instructions in
Standard 1.6 concerns two of its attachments. Attachment 2 (Security
Acknowledgment Statement for System Administrators) is not referred to in
the body of the policy; therefore its intended purpose and usage is unclear.
Attachment 5 (Sample Classified Computer Usage Log) also is not referred
to in the body of the policy and contains no instructions for its completion or
the retention period for the log.

     Increasing Efficiency When Processing Classified Information
in Portable Computers

       Our audit also identified several ways for the Department to more
efficiently and economically store, process, and transmit classified
information in portable computers.

      Removable Hard Drives. Standard 1.6 allows for the use of portable
computers with removable hard drives when processing classified
information. However, it does not explicitly authorize the use of two hard
drives, one for classified information and one for unclassified information, in
a single portable computer. We asked officials from the EOUSA, DEA, and
FBI: (1) if their agencies authorized the use of portable computers with
removable hard drives, one to process classified and another to process
unclassified on the same computer, and (2) if not, whether they would
consider the feature worthwhile. Officials from all three agencies responded
negatively to the first question. The responses to the second question
varied between the agencies. EOUSA responded that the issue does come
up and it would probably be worthwhile to pursue as long as users
understand the applicable security requirements. The DEA responded that
while the feature would have fiscal advantages, the risk of procedural errors
such as forgetting to exchange removable hard drives for the appropriate
type of information processing, could negate the utility of interchanging hard
drives. The FBI responded that the feature could be worthwhile, but it would
need to evaluate any proposed use of removable hard drives based on the
operational need, technical configuration of the system, and other mitigating
factors through the certification and accreditation process.

      We also contacted agencies outside of the DOJ to discuss their policies
with respect to removable hard drives.4 Except for the Department of

      4
        The CIA, the National Security Agency, the National Reconnaissance Office, and
the Department of Energy.
                                           iv
Energy, these agencies process both classified and unclassified information
by using portable computers with two separate removable hard drives — one
hard drive for processing classified information and the other for processing
unclassified information.5

     In our view, the use of removable hard drives is an area that the
Department should consider.

      Type Accreditations. The concept of type accreditations, defined by
the Chief Information Officer in Standard 1.6 for portable and standalone
computers, is an abbreviated accreditation process for classified portable
and standalone computers that can be used in lieu of a full certification and
accreditation process.6 The Chief Information Officer developed this
approach to limit the unnecessary duplication of the full certification and
accreditation requirements. However, Standard 1.6 does not document the
process that DOJ components should use to request type accreditations for
new computer configurations.

       Encryption. Encryption of the hard drive is a safeguard required by
the Committee on National Security Systems that can help protect classified
information from unauthorized use if a portable computer or hard drive is
lost or stolen. Encryption involves a set of mathematically expressed rules
for rendering data unintelligible to an unauthorized user. Standard 1.6 does
not explicitly require the use of the encryption standard specified by the
Committee on National Security Systems.

      Limited Data on Hard Drives.
or stolen. If such devices were installed, a lost or stolen computer could
more easily be located.


Recommendations

       We made 12 recommendations to assist the Department in improving
the storing, processing, and transmitting of classified information on
portable computers. For example, we recommend a revision of Standard 1.6
in order to remove any references to statute, policy, or procedures that are
not applicable to processing classified information, indicate what policy
applies when classified portable computers are allowed to be connected to
classified networks, and address systems that process Classified National
Security Information independently from those that process Sensitive
Compartmented Information.

       We also recommend that the Department consider the use of
removable hard drives for processing both classified and unclassified
information on the same portable computer by using two separate
removable hard drives. This would require that the hard drive become the
classifiable device instead of the portable computer and that appropriate
security safeguards be developed. Additional recommendations relate to the
use of encryption, tracking devices, and the sending of alerts to systems
administrators when classified devices are improperly connected to the
Internet.




                                      vi
                             TABLE OF CONTENTS

                                                                                               Page

INTRODUCTION .................................................................................1
    Government-wide Policy on the Certification and Accreditation of IT
     Systems .................................................................................. 2
    DOJ Policy.................................................................................. 4

FINDINGS AND RECOMMENDATIONS.................................................7

1.     STANDARD 1.6 HAS INAPPROPRIATE REFERENCES AND IS
       INCOMPLETE .............................................................................7
       Inappropriate References in Standard 1.6....................................... 8
       Separate Authority Governing Classified National Security Information
        and Sensitive Compartmented Information ................................... 9
       Incomplete Guidance and Instructions ......................................... 10
       Conclusion ............................................................................... 11
       Recommendations..................................................................... 11

2.     INCREASING EFFICIENCY WHEN PROCESSING CLASSIFIED
       INFORMATION ON PORTABLE COMPUTERS .............................13
       Removable Hard Drives and Operating System.............................. 13
       Type Accreditations ................................................................... 16
       Safeguards for Lost or Stolen Computers ..................................... 16
       Labeling Requirements for Classified Information Media ................. 18
       Recommendations..................................................................... 18

STATEMENT ON INTERNAL CONTROLS.............................................20

APPENDICES....................................................................................21
    Appendix I - Objectives, Scope, and Methodology ..................... 21
    Appendix II - Voting Members of the Committee on National
                       Security Systems ............................................. 22
    Appendix III - Classified Laptop and Standalone Computers
                       Security Policy, Standard 1.6 ............................. 23
    Appendix IV - Chief Information Officer’s Response to the Audit
                       Recommendations ............................................ 48
    Appendix V - Office of the Inspector General, Audit Division,
                       Analysis and Summary of Actions Necessary
                       to Close Report ................................................ 53
        PROCESSING CLASSIFIED INFORMATION
          ON PORTABLE COMPUTERS IN THE
              DEPARTMENT OF JUSTICE
                           INTRODUCTION

      This Office of the Inspector General audit examines the policies and
practices in the Department of Justice (DOJ or Department) for the
processing of classified information in portable computers. Our approach for
conducting this audit included: (1) interviewing officials from within and
outside the Department about classified portable computing policies and
practices and (2) examining government-wide and DOJ policy related to
processing classified information.

       During our initial discussions with the Department’s Deputy Chief
Information Officer and the Assistant Director of the Security and Emergency
Planning Staff (SEPS), they identified DOJ components that process
classified information using portable computers. We selected the Drug
Enforcement Administration (DEA), the Federal Bureau of Investigation
(FBI), and the Executive Office for United States Attorneys (EOUSA) to
examine the use of portable computers for processing classified information.

      We extended our interviews beyond the DOJ to determine how other
federal agencies address the storing and processing of classified information
using portable computers. We met with staff from SEPS and the Chief
Information Officer’s office and discussed their knowledge of other federal
agencies that process classified information on portable computers. Based
on their input, we interviewed Information Technology (IT) and security
personnel from the National Security Agency, the Central Intelligence
Agency (CIA), and the Department of Energy. Based on input from the CIA,
we also contacted the National Reconnaissance Office within the Department
of Defense. (See Appendix I for additional information on our objectives,
scope, and methodology.)

       Our original intention was to examine the policies and practices in the
DOJ for the processing of classified information on portable computers.
However, IT and security staff informed us that we should also review
government-wide policy that applies to all IT systems, whether they process
classified or unclassified information. Therefore, our audit includes a review
of the following government-wide policy (National Institute of Standards and
Technology, Special Publication 800-37; Committee on National Security
Systems, National Information Assurance Certification and Accreditation
Process; and the Director of Central Intelligence Directives, DCID 6/3) that
requires all computer systems be certified before they can be placed in
operation.


Government-wide Policy on the Certification and
Accreditation of IT Systems

      The certification of an IT system involves a comprehensive evaluation
of the technical and non-technical security features and other safeguards in
place on a system. The certification is made as part of and in support of the
accreditation process. The certification process validates that appropriate
safeguards have been implemented on the system. The process culminates
in the accreditation of the system (permission for the system to operate).

      During our research, we identified the organizations that have the
responsibility to develop government-wide policy related to the certification
and accreditation of IT systems. The policies cover all IT systems, including
portable computers. As detailed in the following table, three organizations
have the responsibility to develop policy for the certification and
accreditation of all IT systems.

             Government-wide Certification and Accreditation Authority

                                  Type of
        Organization           Information                Source of Authority
     National Institute of   Unclassified          Federal Information Security
     Standards and                                 Management Act (FISMA)
     Technology (NIST)                             (December 17, 2002)

     Committee on            Classified National   Executive Order 13231
     National Security       Security              (as amended September 17, 2003)
     Systems (CNSS)7         Information (CNSI)

     Central Intelligence    Sensitive             Executive Order 12333
     Agency (CIA)            Compartmented         (as amended August 27, 2004) and
                             Information (SCI)     Executive Order 12958 (as
                                                   amended March 25, 2003)

      The Federal Information Security Management Act (FISMA) delegates
policy development and oversight to the National Institute of Standards and
Technology (NIST) for information systems other than national security
systems. Certification and accreditation procedures for systems other than


      7
         See Appendix II for a complete list of the voting members of the Committee on
National Security Systems.

                                            2
national security systems — unclassified systems (systems that process only
unclassified information) — are documented in NIST Special Publication
800-37, Guide for the Security Certification and Accreditation of Federal
Information Systems.

      To separate unclassified from classified systems, NIST Special
Publication 800-59 includes six questions designed to determine whether the
system meets the definition of a national security system. According to the
publication, “In order for a system to be designated a national security
system, one of the following questions must be answered in the affirmative:”

•     Does the function, operation, or use of the system involve intelligence
      activities?

•     Does the function, operation, or use of the system involve cryptologic
      activities related to national security?

•     Does the function, operation, or use of the system involve command
      and control of military forces?

•     Does the function, operation, or use of the system involve equipment
      that is an integral part of a weapon or weapons system?

•     Is the system critical to the direct fulfillment of military or intelligence
      missions?

•     Does the system store, process, or communicate classified
      information?

Based on the NIST policy, any system that stores, processes, or
communicates classified information is a national security system and falls
under the jurisdiction of the Committee on National Security Systems.

      Executive Order 13231, Critical Infrastructure Protection, identifies the
government-wide committees that develop policy for the protection of
information systems. Based on Executive Order 13231, the Committee on
National Security Systems is responsible for policy over national security
systems. The Committee on National Security Systems has documented
procedures for the certification and accreditation of national security systems
in the National Information Assurance Certification and Accreditation Process
(NIACAP).

      National security systems store, process, or transmit classified
information as defined by Executive Order 12958, Classified National

                                        3
Security Information. The Order defines three levels of Classified National
Security Information:

•      Top Secret — classified information where the unauthorized disclosure
       could reasonably be expected to cause exceptionally grave damage to
       national security;

•      Secret — classified information where the unauthorized disclosure
       could reasonably be expected to cause serious damage to national
       security; and

•      Confidential — classified information where the unauthorized
       disclosure could reasonably be expected to cause damage to national
       security.

       Executive Order 12333, United States Intelligence Activities, requires
that the Director of Central Intelligence, “Ensure the establishment by the
Intelligence Community of common security and access standards for
managing and handling foreign intelligence systems, information, and
products.” In addition, Executive Order 12958, Section 4.3, delegates to the
Director of Central Intelligence authority over special access programs
pertaining to intelligence activities. Further, certification and accreditation of
systems used to process intelligence information, referred to as Sensitive
Compartmented Information, is documented in Director of Central
Intelligence Directive (DCID) 6/3.8

      The policies developed by the Committee on National Security Systems
and the CIA take precedence over the standards developed by the
Department’s Chief Information Officer for national security systems.


DOJ Policy

       When necessary, DOJ employees store, process, and transmit
classified information using portable computers. Employees may also
process sensitive but unclassified information, send and receive e-mail, and
obtain research data from the Internet on portable computers. Currently,
employees who process both classified and unclassified information must
utilize two separate portable computers in order to accomplish their

       8
          Sensitive Compartmented Information is classified information concerning or
derived from intelligence sources, methods, or analytical processes, which is required to be
handled exclusively within formal access control systems established by the Director of
Central Intelligence.

                                             4
assignments. Carrying two portable computers is necessary because the
current DOJ policy does not explicitly authorize the use of two hard drives,
one for classified information and one for unclassified information, in a single
portable computer.

      DOJ Order 2640.2E, titled Information Technology Security,
establishes uniform policy, responsibilities, and authorities for the
implementation and protection of DOJ’s IT systems that store, process, or
transmit classified and unclassified information. The Assistant Director of
SEPS and the Deputy Chief Information Officer described the distinction
between the responsibilities of the two offices as the Chief Information
Officer being responsible for security of classified and unclassified IT systems
and SEPS being responsible for security of the classified information.

       The Department’s Chief Information Officer issued 17 Information
Technology Security Standards between December 4, 2003, and January 30,
2004, for DOJ systems that process classified and unclassified information.
In addition, an 18th standard was issued on August 19, 2004, titled
Information Technology Security Standard, Management Controls, 1.6
Classified Laptop and Standalone Computers Security Policy (Standard 1.6).
Standard 1.6 established uniform information technology security
management controls for laptop (portable) and standalone computers
storing, processing, or transmitting National Security Information in the
DOJ.9 All IT systems in the DOJ that process classified information must be
certified and accredited in accordance with standards established by the
Department’s Chief Information Officer before the system can be used.

        Policy issued by SEPS, titled Security Program Operating Manual
(SPOM), revised November 5, 2004, provides guidance for the safeguarding
of classified information. The SPOM applies to classified information,
security controls, security clearance requirements for employees, and the
facilities authorized to store the information.

      Classified National Security Information cannot be processed in public
areas or while being transported. According to the SPOM and DCID 6/9,
such information can be processed in only four specific types of facilities — a
Sensitive Compartmented Information Facility (SCIF), a Temporary Secure
Working Area, an Open Storage Area, or a Restricted Area.




       9
          During this audit, we analyzed a draft copy of Standard 1.6 (Standard 1.3, version
0.5), issued March 31, 2004, by the Office of the Chief Information Officer. We received a
copy of the final version of Standard 1.6 on September 8, 2004.

                                             5
       A SCIF is an accredited area, room, group of rooms, buildings, or
installation where Sensitive Compartmented Information may be stored,
used, discussed, and electronically processed. A Temporary Secure Working
Area is a space where Sensitive Compartmented Information may be
handled, discussed, or processed, but should not be stored. SEPS oversees
design and security of SCIFs and Temporary Secure Working Areas within
the DOJ, with the exception of the FBI who is responsible for the design and
security of SCIFs and Temporary Secure Working areas under its jurisdiction.

       An Open Storage Area is used when the volume or bulk of classified
material is such that the use of security containers is not practical. When a
component determines that an Open Storage Area is necessary, its location
and construction must be approved by the Department Security Officer. A
Restricted Area can be established when it is necessary to control access to
classified material in an area not approved for open storage. All classified
material must be secured during non-working hours in approved security
containers or vaults. Open Storage Areas and Restricted Areas are
accredited by SEPS for the DOJ, with the exception of the FBI who is
responsible for the design and security of Open Storage Areas and Restricted
Areas under its jurisdiction.

       In Restricted Areas or Temporary Secured Working Areas, the user
must maintain constant possession of the hard drive containing classified
information, or it must be locked in an approved security container. Further,
if the hard drive cannot be removed from the computer, the computer must
be disconnected from its peripheral devices, i.e., a mouse, monitor,
keyboard, and printer, and locked in an approved security container when
not in use.




                                     6
           FINDINGS AND RECOMMENDATIONS

      1.    STANDARD 1.6 HAS INAPPROPRIATE
            REFERENCES AND IS INCOMPLETE


            Standard 1.6 uses references to policies that were
            written for unclassified IT systems. Standard 1.6
            does not address systems that process Classified
            National Security Information separately from
            systems that process Sensitive Compartmented
            Information. Furthermore, Standard 1.6 provides
            incomplete guidance and instruction for network
            connections, and two of its attachments are not
            referred to in the body of the policy. We recommend
            that Standard 1.6 be revised to reduce the difficulty
            that DOJ components may have when attempting to
            comply with Standard 1.6.

       Standard 1.6 contains the following categories of specific requirements
for laptops and standalone computers that store, process, or transmit
National Security Information:

●     Administrative Security
●     Physical Security
●     Personnel Security
●     Identification and Authentication
●     Audit Trail and Review
●     Logical Access Control
●     Password Management
●     Software Security
●     Telecommunications Security
●     Media Security
●     Continuity of Operations
●     Incident Response
●     Encryption

      Standard 1.6 also contains seven attachments: a security
acknowledgement statement for authorized end-users, a security
acknowledgement statement for system administrators, hardware and
software configurations of classified laptop and standalone computers, a list
of acronyms, a sample classified computer usage log, a sample classified


                                      7
computer maintenance log, and a classified laptop and standalone computer
technical checklist (see Appendix III, pages 35-47 for specifics).

      Our review of Standard 1.6 identified three primary areas of concern,
discussed in greater detail below. Standard 1.6 uses references that apply
to unclassified IT systems, does not address systems that process Classified
National Security Information separately from systems that process
Sensitive Compartmented Information, and provides incomplete guidance
and instructions for several attachments.


Inappropriate References in Standard 1.6

      Standard 1.6 uses references to policies that do not apply to portable
or standalone computers that process, store, or transmit classified
information (see Appendix III, page 29). The following five policy references
used in Standard 1.6 do not apply to portable or standalone computers that
process classified information:

•    Office of Management and Budget Circular A-130, Revised,
     (Transmittal Memorandum No. 4; Subject: Management of
     Federal Information Resources) — This Circular discusses
     national security systems, but states in the section titled
     Applicability and Scope that, “Information classified for national
     security purposes should also be handled in accordance with the
     appropriate national security directives.” Further, the Circular
     states, “The policies and procedures established in this Circular
     will apply to national security systems in a manner consistent
     with the applicability and related limitations regarding such
     systems set out in Section 5141 of the Clinger-Cohen Act (Pub.
     L. 104-106, 40 U.S.C. 1451).” The Clinger-Cohen Act relates to
     the budget process for IT systems, not the processing of
     classified information.

•    Federal Information Processing Standards Publication 197,
     Advanced Encryption Standard (FIPS 197) — FIPS 197 does not
     apply to classified systems. The Standard states, “This standard
     may be used by Federal departments and agencies when an
     agency determines that sensitive (unclassified) information (as
     defined in P. L. 100-235) requires cryptographic protection.”
     Rather than referencing FIPS 197 for encryption of classified
     information on portable or standalone computers, the DOJ should
     reference the methods prescribed by the Committee on National
     Security Systems.

                                     8
•    DOJ Order 2620.7, Control and Protection of Limited Official Use
     Information — The subject of DOJ Order 2620.7 is control and
     protection of limited official use information. Therefore, it does
     not apply to classified systems, and the reference to this order
     should be deleted.

•    5 CFR Part 930, Training Requirement for the Computer Security
     Act — 5 CFR Part 930 does not apply to classified systems. The
     authority for the regulation, Public Law 100-235, is limited to
     sensitive but unclassified information. Standard 1.6 should
     instead refer to computer security training (IT Security Standard
     2.8) and protection of classified information training (SPOM,
     Chapter 3).

•    18 U.S.C. 2510, Electronic Communications Privacy Act — This
     Act discusses the interception of wire, electronic, and oral
     communications. Standard 1.6 does not allow any type of
     telecommunications for portable or standalone computers
     processing classified information.

      We believe the references that do not apply to portable or standalone
computers that process classified information should be removed. Also, any
instructions provided in Standard 1.6 that were derived from those incorrect
references should be deleted from the document. The Assistant Director of
SEPS concurred with our position that unclassified references should not be
used in standards for storing, processing, or transmitting classified
information.


Separate Authority Governing Classified National Security
Information and Sensitive Compartmented Information

      Standard 1.6 provides a uniform policy for portable and standalone
computers that store, process, or transmit classified information (see
Appendix III, page 25). However, there are two organizations outside the
DOJ that have government-wide authority over the security of systems that
store, process, or transmit classified information. The Committee on
National Security Systems issued certification and accreditation policy for
systems that process Classified National Security Information. Further, the
CIA issued certification and accreditation policy for systems that process
Sensitive Compartmented Information. Despite unique and specific
guidance regarding Classified National Security Information and Sensitive
Compartmented Information from these government-wide authorities,
Standard 1.6 does not differentiate between the two or provide separate

                                     9
processing requirements for information classified under these distinct
designations.

      We believe that Standard 1.6 should address the systems that process
Classified National Security Information and Sensitive Compartmented
Information separately, because those systems are subject to policies
developed by two separate government-wide authorities. SEPS, a voting
member of the Committee on National Security Systems for the Department
of Justice (see Appendix II, page 22), agrees with our position.


Incomplete Guidance and Instructions

       We found three areas, described below, where the guidance and
instructions provided in Standard 1.6 are incomplete and therefore need
revision.

       Lack of Instructions for Network Connections. Section 3.1,
states that, “No external systems, networks, or communications devices
may be connected to classified laptop and standalone computers.” (See
Appendix III, pages 30 and 31.) However, the Deputy Chief Information
Officer informed us that classified portable computers can be connected to
classified networks if the approval to do so is documented in the security
plan for the certification and accreditation of the applicable network. Based
on that information, Standard 1.6 is not accurate regarding Department
policy on the connection of portable computers to external systems,
networks, or communication devices. In our opinion, Standard 1.6 should
not provide a blanket prohibition, but should indicate what policies apply
when classified laptop computers are authorized to be connected to
classified networks.

      No Explanation of Security Configuration Tests. We asked the
Deputy Chief Information Officer why Attachment 2, entitled “Security
Acknowledgement Statement for System Administrators” (see Appendix III,
pages 37-39), requires that the System Administrator “make the
computer(s) available for reviews of the security configuration by
independent testers” and “ensure that the Certification Agent (CA) or a CA
appointed agent validates system security at least annually.” The Deputy
Chief Information Officer stated that logistical and organizational issues
concerning certification and independent testing are being negotiated.
However, Attachment 2 is not referred to in the body of Standard 1.6.
Therefore, the process for reviews of the security configuration by
independent testers and a validation of system security by certification
agents should be documented in the body of the policy.

                                     10
      No Instructions for Tracking Log. Attachment 5, “Sample
Classified Computer Usage Log” (see Appendix III, page 44), has no
instructions for completing the log. In addition, Standard 1.6 does not refer
to the log or provide a retention period for the log. As written, either the
end-user or the administrator must record every action taken on every
document accessed, along with start and end times. As presented, we
consider the log to be unduly burdensome and in need of revision. The
Deputy Chief Information Officer explained that there is a need for a manual
record of the total time an individual was logged onto the classified system.
We understand the value of a tracking log, but the attachment will require
modification in order to capture only the required information, and
instructions will have to be prepared to inform the end-users and
administrators about how to complete the log and for how long it should be
retained. The Deputy Chief Information Officer indicated that this issue
would be addressed in the next revision of Standard 1.6.


Conclusion

      Standard 1.6 includes inaccurate and confusing references directed at
unclassified systems, does not address systems that process Classified
National Security Information separately from Sensitive Compartmented
Information, and is incomplete in providing guidance and instructions. We
believe that Standard 1.6 could be confusing to DOJ components and should
be revised to correct these deficiencies.


Recommendations

     We recommend that the Justice Management Division revise
Standard 1.6 to:

1.   Remove any references to statute, policy, or procedures that are not
     applicable to processing classified information.

2.   Address systems in accordance with policy from the Committee on
     National Security Systems for Classified National Security Information
     independently from the Director of Central Intelligence Directives for
     Sensitive Compartmented Information.

3.   Indicate what policy applies when classified portable computers are
     allowed to be connected to classified networks.

4.   Refer to Attachment 2 (Security Acknowledgement Statement for
     System Administrators) in the body of the policy and delineate the
                                    11
     process for reviews of the security configuration by independent
     testers and validation of the system security by certification agents.

5.   Refer to Attachment 5 (Sample Classified Computer Usage Log) in the
     body of the policy and provide written instructions for the preparation
     and retention of the log.




                                     12
     2.    INCREASING EFFICIENCY WHEN PROCESSING
           CLASSIFIED INFORMATION ON PORTABLE
           COMPUTERS


           The Department should consider modification of any
           practices for processing classified information on
           portable computers from those prescribed in
           Standard 1.6. We believe that the DOJ’s Chief
           Information Officer should consider revising the
           policy to allow for a variety of innovative features
           and methods to enhance the ability of the DOJ to
           accomplish its mission, while adequately securing its
           classified information.

      We met with four DOJ components (DEA, FBI, EOUSA, and Justice
Management Division) and four outside agencies (CIA, National Security
Agency, National Reconnaissance Office, and the Department of Energy) to
determine how they address the storage of classified information using
portable computers and to determine whether more effective practices are
available to enhance security. All of the agencies contacted, with the
exception of the DEA, store and process some of their classified information
on portable computers.

      From discussions with those interviewed and our review of
Standard 1.6 and the SPOM, we identified four security policy enhancements
we believe the Department should consider for classified portable computers.
The following sections describe those enhancements.


Removable Hard Drives and Operating System

       We asked officials from the EOUSA, DEA, and FBI: (1) if their agency
authorized the use of portable computers with removable hard drives, one to
process classified and another to process unclassified on the same computer,
and (2) if not, whether they would consider the feature worthwhile. Officials
from all three agencies responded negatively to the first question. The
responses to the second question varied among the agencies. The EOUSA
responded that the issue does come up and it would probably be worthwhile
to pursue as long as users understand the applicable security requirements.
The DEA responded that while the feature would have fiscal advantages, the
risk of procedural errors such as forgetting to exchange removable hard
drives for the appropriate type of processing, could negate the utility of


                                     13
interchanging hard drives.10 The FBI responded that the feature could be
worthwhile, but it would need to evaluate any proposed use of removable
hard drives based on the operational need, technical configuration of the
system, and other mitigating factors through the certification and
accreditation process.

       Three of the four agencies we interviewed outside the DOJ process
both classified and unclassified information on the same computer by using
two separate removable hard drives — one hard drive for processing
classified information and the other for processing unclassified information.11

       We discussed the subject of removable hard drives with a major
portable computer manufacturer who told us of at least two companies that
sell 5-gigabyte (5,000 megabytes) removable hard drives. The drives are
priced under $200 each. These drives are generally two inches wide by
three inches long, weigh less than two ounces, and fit into any “Type II PC
Card slot” in portable computers. As presented in the table below, we
believe they have enough storage space for a multi-user operating system,
application software, and a reasonable amount of space for processing
classified information. The table illustrates one example of a portable
computer’s software configuration we believe would meet the needs of many
of the DOJ’s classified computer users. With the Chief Information Officer’s
approval, 5-gigabyte removable hard drives could be used on the DOJ’s
portable computers that process classified information. This computer
configuration would allow both unclassified and classified information
processing in the same portable computer.

        Operating System and Application Software Minimum Requirements
        Example of a Usable Software Configuration           Space Requirements
                   Microsoft XP Professional                         230   megabytes
                  Microsoft Office Professional                      600   megabytes
                        Data Encryption                               15   megabytes
                        Virus Detection                               16   megabytes
                           Sub Total                                 861   megabytes
                       Remaining Space                             4,139   megabytes
      Source: Software company websites.

       10
           We believe that DEA’s concern does not adequately consider that the SPOM
requires computers to contain banners reminding users of the classification for the system.
The SPOM states, “to avoid inadvertent compromises, removable hard drives used on IT
systems for unclassified and classified processing will utilize desktop backgrounds that
display classification banners at the top or bottom.”
       11
          The Department of Energy uses classified portable computers with removable
hard drives but does not interchange an unclassified hard drive with the classified hard
drive. The other three agencies are the CIA, the National Security Agency, and the Nat

                                            14
       Using removable hard drives offers advantages for portable
computers. Without removable hard drives, a user may be required to carry
two portable computers while on a traveling assignment — one for handling
classified information, which requires it to be double-wrapped, and the other
for processing unclassified information, connecting to the Internet, and
viewing e-mail.12 With removable hard drives, the user would be required to
double wrap only the classified hard drive instead of the entire portable
computer. In our opinion, a double-wrapped classified removable hard drive
is an effective security enhancement, as it is easier to conceal and is less
conspicuous due to its smaller size compared to a portable computer.

       Although Standard 1.6 approves of removable hard drives
(Appendix III, page 41), it does not specifically authorize the use of dual
classified and unclassified hard drives in the same portable computer.
Without removable hard drives, users processing classified information on a
portable computer must disconnect all of the attached peripheral devices
and secure the entire computer in an approved security container when it is
to be left unattended. In contrast, with a removable hard drive a DOJ
employee merely has to remove the classified hard drive and secure it, not
the computer shell.

       In order to enhance security of the classified information when using
removable hard drives, system administrators must define user profiles
within the operating system for classified portable computers. For example,
IT security personnel at the National Reconnaissance Office and National
Security Agency told us that a multi-user operating system, such as
Microsoft Windows 2000 or XP, allows system administrators to define
computer users’ profiles and therefore restrict access to the computer’s
input/output ports. Specifically, the access to the unclassified drive when
the removable classified hard drive is in use can be controlled by the
definition of the user’s profile. In addition, they also said that users’ profiles
can allow access to Internet connections when the classified hard drive is not
in use.

      In our view, the use of removable hard drives that can process both
unclassified and classified information in the same computer shell is an area
that the Department should consider.




      12
          Double wrap — classified information must be “…enclosed in two opaque layers;
both of which provide reasonable evidence of tampering and conceal the contents.”

                                           15
Type Accreditations

       The concept of type accreditations, defined by the Chief Information
Officer in Standard 1.6 for portable and standalone computers, is an
abbreviated accreditation process for classified portable and standalone
computers that can be used in lieu of a full certification and accreditation
process (see Appendix III, page 30).13 The Chief Information Officer
developed this approach to limit the unnecessary duplication of the full
certification and accreditation requirements. The Department’s Assistant
Director of SEPS stated that a type accreditation for classified portable and
standalone computers is an acceptable procedure.

      Standard 1.6, Attachment 3 (Hardware and Software Configurations of
Classified Laptop and Standalone Computers), defines three specific types of
computer configurations: classified laptop computers, classified standalone
computers, and computers with removable hard drives (see Appendix III,
pages 40-42). Each of the three specific types of computer configurations
contains a list of recommended hardware configurations, mandatory
hardware features, and software configurations.

       We believe that Standard 1.6 should allow the DOJ components more
flexibility in the design of portable and standalone computer systems. The
Deputy Chief Information Officer informed us that flexibility is built into the
type accreditation process. However, the process to obtain type
accreditations for other configurations is not documented in Standard 1.6. A
revised Standard 1.6 should document the process for DOJ components to
follow when requesting computer configurations not specified in the
Standard. Furthermore, Standard 1.6 should be written to allow the DOJ
components flexibility to incorporate innovative safeguards that do not
compromise security.


Safeguards for Lost or Stolen Computers

       Additional effective safeguards for classified computers and hard drives
may strengthen security by lowering the risk of unauthorized persons
gaining access to classified information in the event a portable computer is
lost or stolen.

      For example, encryption of the hard drive is a safeguard that IT and
security personnel believe can reasonably protect classified information from


      13
           Accreditation of a system is the permission for an IT system to operate.

                                             16
unauthorized use if a portable computer is lost or stolen.14 As discussed on
page 8, the Chief Information Officer’s reference for encryption cites the
Federal Information Processing Standard Publication 197 — Advanced
Encryption Standard (Appendix III, page 29). Yet, FIPS 197 applies to
unclassified systems, not classified systems, which is the focus of Standard
1.6. Further, the Committee on National Security Systems has a Presidential
delegation for national security systems through Executive Order 13231.
Therefore, we believe the Chief Information Officer should explicitly require
the use of the encryption standard specified by the Committee on National
Security Systems when defining DOJ standards.

      In addition to encryption, we identified three security enhancements
that the DOJ could use to protect classified information on portable
computers. The following safeguards could help reduce the amount of
damage or decrease the chances of unauthorized individuals gaining access
to classified data in the event a portable computer or hard drive is lost or
stolen:

●      Reduce the risk of unauthorized access to classified information while
       the portable computer is in transit by limiting the amount of classified
       information on the hard drive to the minimum amount of information
       necessary to accomplish the mission. This safeguard, used by the
       National Security Agency, reduces the amount of damage that can
       occur if an unauthorized user gains access to the information.

●      Program the computer’s operating system to send a message to the
       system administrator if the computer is connected to the Internet.
       Connecting a classified computer to the Internet increases the risk that
       unauthorized users may obtain access to classified information. The
       National Reconnaissance Office uses this safeguard. Sending a
       warning message to a system administrator would allow a DOJ
       component to take steps to mitigate potential damage to national
       security in the event of a security breach.

●      Install an electronic device on the portable computer that can track or
       locate the equipment using global positioning technology. If such a
       device were installed, the computer could be tracked and located if it
       was lost or stolen.

      We believe that these security enhancements identified by IT and
security personnel should be considered by the Chief Information Officer


       14
           Encryption involves a set of mathematically expressed rules for rendering data
unintelligible by executing a series of conversions controlled by a key.
                                            17
when drafting policy for portable computers processing classified
information.


Labeling Requirements for Classified Information Media

      Current Department policy, in Chapter 8, Section 8-203, of the SPOM,
specifically states, “Classification Markings (Labels) must be displayed on all
components of an IT system that have the potential for retaining classified
information.” The IT and security staff we interviewed at the National
Security Agency indicated that the shell of a portable computer does not
retain any retrievable data after removal of the computer’s hard drive
containing the operating system. The National Security Agency staff further
said that once a computer is powered down, all data in the random access
memory is gone and cannot be retrieved, effectively sanitizing the computer
shell. In our opinion, Standard 1.6 should specify that the shell does not
remain classified after the classified hard drive is removed.

       Using removable hard drives on classified portable computers would
require creating a new label for the shell to indicate that the computer might
contain classified information, but is also cleared to process unclassified
information. Therefore, the SPOM should be revised to describe the
markings for this type of equipment. The Assistant Director of SEPS agreed
with our position on labeling the portable computer shell and indicated that
the change to the labeling requirement would occur during the next SPOM
revision.


Recommendations

      We recommend that the Justice Management Division:

6.    Consider the use of removable hard drives for processing both
      classified and unclassified information on the same portable computer
      by using two separate removable hard drives. This would require that
      the hard drive become the classifiable device instead of the portable
      computer and that appropriate security safeguards be developed.

7.    Document the process that gives DOJ components the flexibility to
      incorporate safeguards through new type accreditations to protect
      classified computers from unauthorized access.

8.    Adopt the encryption standard specified by the Committee on National
      Security Systems.

                                      18
9.    Consider enhancing security by writing policy to limit classified data on
      a hard drive to what is necessary to accomplish the mission.

10.   Consider enhancing security by programming the computer to send a
      message to the system administrator if a computer with a classified
      hard drive is connected to the Internet.

11.   Consider enhancing security by installing an electronic device on
      portable computers to track the equipment in the event it is lost or
      stolen.

12.   Create a new label for portable computers that indicates the computer
      may contain classified information, but is also cleared to process
      unclassified information.




                                      19
           STATEMENT ON INTERNAL CONTROLS

      In planning and performing our audit of the Department of Justice’s
policy on the use of classified information in portable computers, we did not
assess the Department’s internal controls over the processing of classified
information on portable computers. Our audit was more limited than would
be necessary to express an opinion of the Department’s internal control
structure over classified information as a whole.

       Reportable conditions, as defined by the Government Auditing
Standards, involve matters coming to our attention relating to deficiencies
that, in our judgment, could adversely affect the Department’s controls over
the processing of classified information in portable computers. During this
audit, we did not identify any reportable conditions that could adversely
affect the Department’s controls over the processing of classified
information.

       This statement is intended solely for information purposes and use by
the Department’s management in their development of policy over the
processing of classified information in portable computers. This usage
restriction is not intended to limit the distribution of this report, which is a
matter of public record.




                                       20
                                                                  APPENDIX I

       OBJECTIVES, SCOPE, AND METHODOLOGY

       Our audit objectives were to: (1) review the Department’s policies and
practices concerning the storage of classified information on portable
computers, and (2) determine whether more effective practices could be
adopted by the Department to enhance the ability to process classified
information on portable computers while adequately safeguarding the
information.

      Our audit was performed in accordance with the Government Auditing
Standards issued by the Comptroller General of the United States and included
such tests as necessary using the performance auditing standards to accomplish
the audit objectives stated above.

       The scope of our audit included reviewing the DOJ Chief Information
Officer’s 18 Information Technology Security Standards; the DOJ’s Security
Program Operating Manual; Executive Orders 12333, 12958, and 13231; DOJ
Orders 2640.2E and 2620.7; applicable sections of the Federal Information
Security Management Act of 2002; applicable sections of the Clinger-Cohen Act;
NIST Publications 800-37 and 800-59; applicable sections of the National
Information Assurance Certification and Accreditation Process (NIACAP);
Director of Central Intelligence Directives, DCIDs 6/3 and 6/9; Federal
Information Processing Standards Publication 197; Office of Management and
Budget Circular A-130; 5 CFR Part 930; and 18 U.S.C. 2510.

      During our initial discussions with the Department’s Deputy Chief
Information Officer and the Assistant Director of the Security and Emergency
Planning Staff, they identified DOJ components that process classified
information using portable computers. Based on their recommendations of
components that process classified information, we selected the Drug
Enforcement Administration, the Federal Bureau of Investigation, and the
Executive Office for United States Attorneys to discuss the use of portable
computers for processing classified information.

      We extended our interviews beyond the DOJ in order to determine how
other federal agencies address the storing and processing of classified
information using portable computers. Based on meetings with staff from SEPS
and the Chief Information Officer’s office, we interviewed IT and security
personnel from the National Security Agency, the Central Intelligence Agency,
and the Department of Energy. While conducting our interviews with staff at
the Central Intelligence Agency, they recommended we also contact the
National Reconnaissance Office within the Department of Defense.

                                      21
                                                              APPENDIX II

       VOTING MEMBERS OF THE COMMITTEE ON
           NATIONAL SECURITY SYSTEMS

      The Acting Assistant Secretary of Defense for Networks and
Information Integration who is also the Department of Defense Chief
Information Officer currently chairs the quarterly meetings of the Committee
on National Security Systems. The following list contains the
representatives of the Committee on National Security Systems who have
voting privileges.

Central Intelligence Agency
Defense Intelligence Agency
Department of Commerce
Department of Defense
Department of Energy
Department of Homeland Security
Department of Justice
Department of State
Department of Transportation
Department of Treasury
Federal Bureau of Investigation
General Services Administration
National Security Agency
National Security Council
Office of Management and Budget
United States Air Force
United States Army
United States Joint Chiefs of Staff
United States Marine Corp
United States Navy




                                      22
     APPENDIX III




23
     APPENDIX III




24
     APPENDIX III




25
     APPENDIX III




26
     APPENDIX III




27
     APPENDIX III




28
     APPENDIX III




29
     APPENDIX III




30
     APPENDIX III




31
     APPENDIX III




32
     APPENDIX III




33
     APPENDIX III




34
     APPENDIX III




35
     APPENDIX III




36
     APPENDIX III




37
     APPENDIX III




38
     APPENDIX III




39
     APPENDIX III




40
     APPENDIX III




41
     APPENDIX III




42
     APPENDIX III




43
     APPENDIX III




44
     APPENDIX III




45
     APPENDIX III




46
     APPENDIX III




47
     APPENDIX IV




48
     APPENDIX IV




49
     APPENDIX IV




50
     APPENDIX IV




51
     APPENDIX IV




52
                                                               APPENDIX V

        OFFICE OF THE INSPECTOR GENERAL,
                 AUDIT DIVISION,
        ANALYSIS AND SUMMARY OF ACTIONS
           NECESSARY TO CLOSE REPORT

Recommendation Number:

1.   Resolved. The Office of the Chief Information Officer (OCIO) agreed
     with our recommendation. The OCIO will revise Standard 1.6 to
     remove any reference to statutes, policies, or procedures that is not
     applicable to classified information processing. The OCIO expects that
     the next revision of Standard 1.6 will be finalized by the end of
     September 2005. To close this recommendation, the OCIO should
     provide us a draft copy of the of the Standard 1.6 revision.

2.   Resolved. The OCIO agreed with our recommendation. The OCIO
     will revise Standard 1.6 to address systems according to policy from
     the Committee on National Security Systems (CNSS) for Classified
     National Security Information independently from the Director of
     Central Intelligence Directives for Sensitive Compartmented
     Information (SCI). The OCIO stated that the Standard 1.6 revision will
     indicate the requirements applicable to both non-SCI and SCI
     computers. To close this recommendation, the OCIO should provide
     us a draft copy of the of the Standard 1.6 revision.

3.   Resolved. The OCIO agreed with our recommendation. The OCIO
     will revise Standard 1.6 to indicate what policies apply when classified
     portable computers are allowed to be connected to classified networks.
     The OCIO stated that it will add a statement identifying relevant
     policies to connect classified portable computers to classified networks
     to the revised Standard 1.6. To close this recommendation, the OCIO
     should provide us a draft copy of the of the Standard 1.6 revision.

4.   Resolved. The OCIO agreed with our recommendation. The OCIO
     will revise Standard 1.6 to both reference Attachment 2 (Security
     Acknowledgement Statement for System Administrators) and delineate
     the process used to review the security configuration by independent
     testers and validate system security by certification agents. To close
     this recommendation, the OCIO should provide us a draft copy of the
     of the Standard 1.6 revision.

                                    53
                                                                  APPENDIX V

5.   Resolved. The OCIO agreed with our recommendation. The OCIO
     will revise Standard 1.6 to reference Attachment 5 (Sample Classified
     Computer Usage Log) and provide written instructions for the
     preparation and retention of the log. The OCIO also stated that a
     reference to Attachment 5 will require use of the log and allow an
     Authorizing Official to accept the risk for not using the log after a risk-
     based decision. To close this recommendation, the OCIO should
     provide us a draft copy of the of the Standard 1.6 revision.

6.   Resolved. The OCIO agreed with our recommendation. The OCIO
     will revise Standard 1.6 to include the use of removable hard drives
     for processing both classified and unclassified information on the same
     portable computer by using two separate removable hard drives. To
     close this recommendation, the OCIO should provide us a draft copy of
     the Standard 1.6 revision.

7.   Resolved. The OCIO agreed with our recommendation. The OCIO
     will revise Standard 1.6 to encourage components to use an
     accreditation process for non-networked classified computers. To do
     this, the OCIO will add a section to Standard 1.6 addressing
     accreditation requirements and endorsing the concept of type
     accreditation for non-networked classified computers. Additionally, the
     OCIO stated that a revised Standard 1.6 will allow components the
     flexibility to incorporate appropriate additional safeguards to protect
     classified computers from unauthorized access. To close this
     recommendation, the OCIO should provide us a draft copy of the
     Standard 1.6 revision.

8.   Resolved. The OCIO agreed with our recommendation. In July 2005,
     the OCIO will contact the National Security Agency (NSA) to determine
     the current status of initiatives developing encryption standards for
     data stored on classified computers. Additionally, the OCIO will revise
     Standard 1.6 to reference both CNSS and NSA encryption standards.
     To close this recommendation, the OCIO should inform us of the
     outcome of NSA discussions regarding standards for data stored in
     classified computers and provide us a draft copy of the Standard 1.6
     revision.

9.   Resolved. The OCIO agreed with our recommendation. The OCIO
     will revise Standard 1.6 to address limiting classified data on hard
     drives. To close this recommendation, the OCIO should provide us a
     draft copy of the Standard 1.6 revision.

                                      54
                                                               APPENDIX V

10.   Resolved. The OCIO agreed with our recommendation. In July 2005,
      the OCIO will send a request to the Department of Homeland Security
      (DHS) Science and Technology Directorate to request guidance
      regarding mechanisms to securely notify system administrators when
      classified hard drives are connected to the Internet. To close this
      recommendation, the OCIO should inform us of the outcome of the
      DHS request.

11.   Resolved. The OCIO agreed with our recommendation. In July 2005,
      the OCIO will send a request to the DHS Science and Technology
      Directorate regarding tracking mechanisms. However, the OCIO
      commented that tracking mechanisms appear to require substantial
      infrastructure that may not be justified to track a limited number of
      classified computers. To close this recommendation, the OCIO should
      inform us of the outcome of the Department of Homeland Security
      concerning tracking mechanisms.

12.   Closed. The OCIO agreed with our recommendation. The OCIO
      indicated that the Security Program Operating Manual (SPOM) now
      addresses the labeling of computers using removable drives to switch
      between classified and unclassified operations. Different banners will
      be displayed on computer screens for unclassified and classified
      processing.




                                     55
